District Judge Ronald B. Leighton
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
UNITED STATES OF AMERICA, ex rel.
David Golden et al.,
Plaintiffs,
v.
Troy X. Kelley, et al.,
Defendants.
CASE NO. 18-CV-6051-RBL
ORDER
Now before the Court is the United States’
motion to dismiss all claims brought on behalf of
the United States by Relator David Golden
pursuant to the False Claims Act, 31 U.S.C. §§
3729-33.
Having carefully considered the papers and
relevant legal authority, the Court GRANTS the
United States’ motion to dismiss under 31 U.S.C. §
3730(c)(2)(A) without prejudice.
Dated this 14th day of May, 2019.

A4

s/ Ronald B. Leishton
Ronald B. Leighton
United States District Judge
Presented by:
BRIAN T. MORAN
United States Attorney
s/ Ashley C. Burns
ASHLEY C. BURNS, NY Bar #5186382
Assistant United States Attorney
United States Attorney’s Office
700 Stewart Street, Suite 5220
Seattle; Washington 98101-1271
Phone: 206-553-7970
Fax: 206-553-4067
E-mail: ashley.burns@usdoj.gov

A5

Gmail
Dave Golden goldend3@gmail.com
Activity in Case 3:18-ev-06051-RBL United
States of America et al v. Kelley et al Minute
Order
1 message
ECF@wawd.uscourts.gov
<ECF@wawd.uscourts.gov> Wed, May 15, 2019 at
3:57 PM
To: ECF@wawd.uscourts.gov
This is an automatic e-mail message
generated by the CM/ECF system. Please DO
NOT RESPOND to this e-mail because the
mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS***
Judicial Conference of the United States
policy permits attorneys of record and parties
in a case (including pro se litigants) to
receive one free electronic copy of all
documents filed electronically, if receipt is
required by law or directed by the filer.
PACER access fees apply to all other users. To
avoid later charges, download a copy of each
document during this first viewing. However,
if the referenced document is a transcript, the
free copy and 30 page limit do not apply.
U.S. District Court
United States District Court for the Western
District ofWashington
Notice of Electronic Filing
A6

The following transaction was entered on 5/15/2019
at 3:57 PM PDT and filed on 5/15/2019
Case Name: United States of America et al v.
Kelley et al
Case Number: 3:18-cv-06051-RBL
Filer:
Document Number: 17(No document attached)
Docket Text:
MINUTE ORDER: The [15] MOTION Petition
for writ of quo warranto; $33 million; other,
filed by David Golden is DENIED AS MOOT.
Entered as directed by Judge Ronald B.
Leighton.
(DK)
3:18-cv-06Q51-RBL Notice has been
electronically mailed to:
Ashley C Burns Ashley.Burns@usdoj.gov,
alexandr a. m. mele ndez@usdoj. gov,
caseview.ecf@usdoj.gov, ecf-civ.usawaw@usdoj.gov,
thomas.everett@usdoi.gov
David Golden goldend3@gmail.com
3:18-cv-06051-RBL Notice will not be
electronically mailed to:

A7

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
UNITED STATES OF AMERICA, ex rel. David
Golden, et al.,
Plaintiff,
v.
Troy X. Kelley, et al.
Defendants.
JUDGMENT IN A CIVIL CASE
CASE NUMBER: C18-6051RBL
□Jury Verdict. This action came before the Court
for a trial by jury. The issues have been
tried and the jury has rendered its verdict.
XX Decision by Court. This action came to
consideration before the Court. The issues have
been considered and a decision has been rendered.
THE COURT HAS ORDERED THAT the United
States’ Motion to Dismiss [13] is
GRANTED without prejudice.
DATED Mav 15. 2019
A8

William M. McCool
Clerk
s/ Dana Kaheel
Deputy Clerk

A9

HONORABLE RONALD B. LEIGHTON
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
UNITED STATES OF AMERICA,
ex rel.
DAVID GOLDEN (alias JEREMY
THUNDERCLOUD, JOHNY BIGFISH,
G.)
Plaintiffs,
v.
TROY X. KELLEY, et al.,
Defendant.
CASE NO. C18-6051RBL
ORDER
THIS MATTER is before the Court on the following
post-judgment [See Dkt. # 18] motions, all filed by
plaintiff Golden: Motion to Amend Judgment [Dkt.
# 21]; Motion to Vacate Judgment [Dkt. # 22];
Motion for Sanctions against the USDOJ [Dkt. #
23]; and Supplemental Motion to Vacate and
Amend [Dkt. # 24]. The latter is replete with 1400
pages of exhibits apparently designed to
A10

demonstrate the breadth of the conspiracy, the
alarming number of corrupt judges that have
wronged him, and his unfortunate, repeated
selection of incompetent attorneys who did not get
him what he wanted.
Golden’s complaint was implausible and
incomprehensible, and his recent filings fare no
better. Golden alleges, and asks this Court to assist
him in solving, an impossibly gigantic conspiracy
involving everything from the Oso landslide to the
Skagit River bridge collapse to the Mueller
investigation to “Bertha’s” problems digging the
highway 99 tunnel under Seattle. Among other
things, Golden’s current motions claim that the act
of filing a motion to dismiss (which was granted) is
part of the plot against him, and he seeks to parties
and claims based on that filing. Neither this nor
any other proposed amendment could save Golden’s
complaint as a matter of law.
The case was and is frivolous on its face. All of
Golden’s Motions are DENIED and the matter is
CLOSED. The Court will not accept any further
filings in this case, except a Notice of Appeal.
IT IS SO ORDERED.
Dated this 26th day of June, 2019.
s/ Ronald B. Leighton
Ronald B. Leighton
United States District Judge

All

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DAVID GOLDEN, AKA Johny Bigfish,
AKA G. Jeremy Thundercloud, Relator; ex
rel. United States of America,
Plaintiff-Appellant,
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
TROY X. KELLEY, individually and the
marital community composed thereof; et al.,
Defendants-Appellees.
No. 19-35608
D.C. No. 3:18-cv-06051-RBL
Western District of Washington,
Tacoma
ORDER
Before: THOMAS, Chief Judge, BERZON and
BRESS, Circuit Judges.
A review of the record and the opening brief
indicates that the questions raised in this appeal
are so insubstantial as not to require further
A12

argument. See United States v. Hooton, 693 F.2d
857, 858 (9th Cir. 1982) (stating standard).
Accordingly, we grant the motion to summarily
affirm the district court’s judgment (Docket Entry
No. 14). AFFIRMED.
12/19/19

A13

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DAVID GOLDEN, AKA Johny Bigfish,
AKA G. Jeremy Thundercloud, Relator; ex
rel. United States of America,
Plaintiff-Appellant,
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
TROY X. KELLEY, individually and the
marital community composed thereof; et al.,
Defendants-Appellees.
No. 19-35608
D.C. No. 3:18-cv-06051-RBL
Western District of Washington,
Tacoma
ORDER
Before: THOMAS, Chief Judge, BERZON and
BRESS, Circuit Judges.
Appellant’s motion for reconsideration
(Docket Entry No. 19) is denied. See 9th Cir. R. 2710.
A14

Appellant’s petition for rehearing is denied,
and his petition for rehearing en banc (Docket
Entry No. 22) is denied on behalf of the court. See
9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
Appellant’s motion to stay issuance of the
mandate for 45 days (Docket Entry No. 21) is
denied as moot. The mandate shall issue in due
course.
No further filings will be entertained in this
closed case.
5/14/20

A15

